No.

In The
Supreme Court of the United States of America
MICHAEL RAMON OCHOA,
Petitioner, pro se,
v.
Dr. Arthur Levine, et al
Respondents.
CERTIFICATE OF COMPLIANCE
I declare under penalty of perjury that the foregoing has been produced in
compliance with Rule 33.1(h) regarding word limitations. There are 995 words in the
petition excluding the parts of the petition that are exempt by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Michael Ramon Ochoa,
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
Date: December 23, 2019

si ciift

Assistant Clerk Redmond K. Barnes
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
(202) 479-3022
RE:

Ochoa v. Levine
PASC# 137 WAL 2019

Dear Mr. Barnes,
Thank you for the clear and concise instructions.
1. Enclosed, please find 40 corrected, signed original copies of 11-07-19 Petition
for Writ of Certiorari.
2. The materials contained in the appendix have been brought into compliance
with Rules 14 and 33.1(b).
3. I do, hereby swear and declare that opposing counsel has been served with 3
corrected copies per Rules 33.1 and 29.3, as well as this notice and a certificate per
33.1(h).
Terras Irradient,

Michael Ramon Ochoa,
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com

Date: December 23, 2019

RECEIVED
DEC 26 2019
■

